KANNON K. SHANMUGAM
TELEPHONE
FACSIMILE

(202) 223-7325
(202) 204-7397

E-MAIL: kshanmugam@paulweiss.com

November 19, 2019

BY MESSENGER AND ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Walker v. United States, No. 19-373

Dear Mr. Harris:
I represent petitioner in the above-captioned matter. I am writing on behalf
of both parties to request extensions of time for filing the merits briefs and joint
appendix in this case, as follows:
Brief for the petitioner and joint appendix:
Brief for the United States:

January 6, 2020
February 12, 2020

Both parties have agreed to the foregoing schedule, which would enable this case to
be heard during the Court’s March 2020 sitting. Should you need any additional
information, please do not hesitate to let me know.
Yours sincerely,
Kannon K. Shanmugam
cc:

Noel J. Francisco, Esq. (by U.S. mail)

